Case #
IN THE SUPREME COURT OF THE UNITED STATES
LARRY WILKERSON,
Petitioner;
v.
UNITED STATES OF AMERICA,
Respondent

:
:
:
:
:
:
:
:
:

On Petition for Writ of Certiorari to the
United States Court of Appeals for the District of Columbia
CERTIFICATE OF SERVICE
I hereby certify that on this 5th day of March, 2021, a true copy of Petitioner Larry
Wilkerson’s Petition for a Writ of Certiorari and accompanying Appendix, along with
petitioner’s Motion to Proceed In Forma Pauperis was mailed, postage prepaid, through first
class mail or priority mail by the United States Postal Service, to Ms. Elizabeth Prelogar, Acting
Solicitor General of the United States, Office of the Solicitor General, Room 5616, U.S.
Department of Justice, Room 5616, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530.
Respectfully submitted,
/s/
Sebastian K.D. Graber, Esq.
904 Sedgefield Street
Durham, NC 27705
540-226-9987
skdgesq@gmail.com
Counsel for Appellant
Appointed by the D.C. Circuit

